NO.__________
IN THE
SUPREME COURT OF THE UNITED STATES
SAMER ABDALLA
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent
ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
MOTION TO PROCEED IN FORMA PAUPERIS
Petitioner Samer Abdalla moves to proceed in forma pauperis. He is
indigent, was allowed to proceed in forma pauperis in the courts below, and was
appointed counsel by the United States District Court under 18 U.S.C. ยง 3006A.
Accordingly, his motion to proceed in forma pauperis should be granted.

November 24, 2020

s/ Michael C. Holley

Michael C. Holley (BPR #021885)
Assistant Federal Public Defender
810 Broadway, Suite 200
Nashville, Tennessee 37203-3805
(615) 736-5047

